Department of Homeland Security
   2IÀFHRI,QVSHFWRU*HQHUDO


    Challenges Remain in DHS' Efforts to Secure Control

                         Systems





OIG-09-95                                       August 2009
Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


     Progress Made in Facilitating Control Systems Cybersecurity Awareness...................4 


     Improved Information Sharing and Communication Will Enhance Control 

     Systems Cybersecurity...................................................................................................5 

     Recommendations..........................................................................................................7                

     Management Comments and OIG Analysis .................................................................8 


     Increasing the Number of Vulnerability Assessments Can Reduce Sectors’ 

     Risks...............................................................................................................................9 

     Recommendations........................................................................................................11                 

     Management Comments and OIG Analysis ................................................................12 


     Specific Performance Measures Should be Defined to Assess Effectiveness 

     of CSSP........................................................................................................................13 

     Recommendation .........................................................................................................15                

     Management Comments and OIG Analysis ................................................................15 


     Formal Training Program Will Increase Public Awareness and Protection 

     Expertise ......................................................................................................................15 

     Recommendations........................................................................................................17                 

     Management Comments and OIG Analysis ................................................................17 


Appendices
     Appendix A:          Purpose, Scope, and Methodology........................................................19

     Appendix B:          Management Comments to the Draft Report ........................................21

     Appendix C:          Major Contributors to this Report .........................................................25 

     Appendix D:          Report Distribution................................................................................26

Table of Contents/Abbreviations 


Abbreviations
  CIKR          Critical Infrastructure and Key Resources
  CS2SAT        Control System Cyber Security Self-Assessment Tool
  CSCSWG        Cross-Sector Cyber Security Working Group
  CSSP          Control Systems Security Program
  DHS           Department of Homeland Security
  FY            Fiscal Year
  GAO           Government Accountability Office
  HSPD          Homeland Security Presidential Directive
  ICS-CERT      Industrial Control Systems Cyber Emergency Response Team
  ICSJWG        Industrial Control Systems Joint Working Group
  INL           Idaho National Laboratory
  IT            Information Technology
  NCSD          National Cyber Security Division
  NIPP          National Infrastructure Protection Plan
  NPPD          National Protection and Programs Directorate
  OIG           Office of Inspector General
  PSA           Protective Security Advisors
  SSA           Sector-Specific Agency
  US-CERT       United States Computer Emergency Readiness Team
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                We reviewed the National Cyber Security Division’s (NCSD)
                Control Systems Security Program (CSSP) to determine its
                effectiveness in improving cybersecurity for control systems
                within the nation’s critical infrastructure and key resources.
                Control systems are vital to the operation of production systems
                within factories and plant facilities across the nation. They are
                used in industries, such as chemical, electric, oil and natural gas,
                and water and wastewater treatment. A disruption in control
                system operations may result in the loss of productivity and life,
                and have a negative impact on the economy and national security.

                NCSD implemented its CSSP to coordinate the cybersecurity
                efforts for control systems between the public and private sectors.
                NCSD facilitates cybersecurity information sharing with the public
                and private sectors through various working groups, issuing white
                papers, and web postings. In coordination with other leading
                security organizations, NCSD jointly sponsors and participates in
                cybersecurity training. NCSD offers online training, via its
                United States Computer Emergency Readiness Team website, and
                conducts its own instructor-led training sessions designed to
                provide information on cyber threats and the mitigation of
                vulnerabilities. NCSD also performs vulnerability assessments of
                operational control systems and vendor equipment to improve their
                security posture.

                While NCSD has made progress in implementing a cybersecurity
                program for control systems, opportunities still exist for
                improvements to its CSSP. NCSD needs to encourage more
                information sharing of critical infrastructures’ needs, threats, and
                vulnerabilities between the public and private sectors. NCSD
                should increase the number of cybersecurity vulnerability
                assessments performed in order to reduce the overall risk to current
                operational control systems. NCSD should establish enhanced
                performance measures to ensure its mission and goals are attained
                as they relate to CSSP. Additionally, NCSD’s education, training,
                and awareness program should be expanded to improve the public



                Challenges Remain in DHS’ Efforts to Secure Control Systems

                                        Page 1
             and private sector personnel’s knowledge of control systems
             cybersecurity.

             We originally proposed 8 recommendations to the Deputy Under
             Secretary of the National Protection and Programs Directorate
             (NPPD). Recommendation 7 was removed based on the response
             received from NPPD. NPPD has already begun to initiate actions
             to implement the remaining recommendations. NPPD’s response
             is summarized and evaluated in the body of this report and
             included, in its entirety, as Appendix B.

Background
             The information technology (IT) revolution has changed the way
             businesses and the public operate. Regardless of security
             implications, the nation shifted the control of essential processes in
             manufacturing, utilities, and communications to networked
             systems. Due to the nation’s reliance on the cyber infrastructure
             and the daily challenges of cybersecurity, the Department of
             Homeland Security (DHS) has the lead on coordinating efforts to
             enhance protection of the critical infrastructure and key resources
             (CIKR). Terrorists and spies are targeting public and private
             sector information networks in order to gain competitive
             advantages and cause disruptions in the nation’s CIKR.

             Approximately 90% of critical infrastructures are privately owned
             and operated. The nation’s CIKR are composed of public and
             private institutions in 18 sectors: Agriculture and Food, Banking
             and Finance, Chemical, Commercial Facilities, Communications,
             Critical Manufacturing, Dams, Defense Industrial Base,
             Emergency Services, Energy, Government Facilities, Healthcare
             and Public Health, IT, National Monuments and Icons, Nuclear
             Reactors, Materials, and Waste, Postal and Shipping,
             Transportation Systems, and Water. Control systems operate the
             production systems in these CIKR sectors.




             Challenges Remain in DHS’ Efforts to Secure Control Systems

                                     Page 2
   Figure 1: Examples of CIKR Sectors




   Initially, control systems had little resemblance to traditional IT
   systems because they were isolated systems running proprietary
   protocols using specialized hardware and software. Today, control
   systems are adopting IT solutions to promote corporate business
   systems connectivity and remote access capabilities. Control
   systems that previously used proprietary protocols are becoming
   Internet Protocol-enabled, which can increase the likelihood of
   cyber vulnerabilities and incidents.

   According to the Homeland Security Act of 2002, the Secretary of
   DHS is assigned the responsibility to coordinate the overall
   national effort to enhance the protection of CIKR. Within DHS,
   NCSD works collaboratively with public, private and international
   entities to secure cyberspace and America’s cyber assets. NCSD
   has two overarching priorities: (1) to build an effective national
   cyberspace response system; and (2) to implement a cyber risk
   management program for critical infrastructure protection.
   Furthermore, NCSD is to provide guidance and methodologies to
   sectors to assist them in managing cyber risks and to develop
   effective and appropriate protective plans and measures.

   Although each of the critical infrastructure industries is vastly
   different, they all have one thing in common – their dependency on
   control systems to monitor, control, and safeguard vital processes.
   NCSD has recognized that the protection and security of control
   systems is essential to the nation’s security and economy. NCSD
   established its CSSP to help coordinate cybersecurity efforts
   among public entities, as well as control systems owners,
   operators, and vendors. The goal of the program is to lead a
   cohesive effort between public and private sectors to reduce the
   risk and improve the security posture of control systems within and



Challenges Remain in DHS’ Efforts to Secure Control Systems

                          Page 3
                          across all CIKR. Furthermore, NCSD coordinates risk mitigation
                          activities to reduce the likelihood and severity of successful cyber
                          attacks against critical control systems.

Results of Audit
        Progress Made in Facilitating Control Systems Cybersecurity
        Awareness
                 NCSD has made progress in broadening awareness about control systems
                 cybersecurity. NCSD undertook efforts to coordinate protection activities
                 of critical infrastructure sectors and serve as the focal point for the security
                 of cyberspace.

                 NCSD conducted exercises in order to demonstrate to control systems
                 owners the possible effects to their systems as a result of a cyber incident.
                 One such exercise was the Aurora project which specifically focused on
                 the use of digital protection control devices. 1 NCSD issued a series of
                 reports designed to improve cybersecurity by recommending best practices
                 to address common hardware and software vulnerabilities. NCSD also
                 partnered with several of the Sector Specific Agencies (SSAs) in preparing
                 their sector specific roadmaps in addressing control systems cybersecurity
                 initiatives. Additionally, NCSD established collaborative relationships
                 with the public and private sectors to facilitate cybersecurity awareness for
                 the control systems that protect the nation’s CIKR. Other progress
                 included:

                 x	   Establishing the CSSP and the hiring of staff to address cybersecurity
                      issues directly related to control systems. Additionally, a CSSP
                      analyst assists United States Computer Emergency Readiness Team
                      (US-CERT) with control systems-related incidents to quickly
                      coordinate the activities needed to address the event and inform the
                      public and private sectors.

                 x	   Establishing working groups within the public and private sectors to
                      provide resources and forums for organizations to better approach
                      cybersecurity issues. The working groups assist with the coordination
                      of control systems cybersecurity initiatives.




1
  The Aurora project, sponsored by DHS, demonstrated the effect of hacking into a power plant’s control
station via computers and digital devices.



                       Challenges Remain in DHS’ Efforts to Secure Control Systems

                                                 Page 4
                  x	   Distributing US-CERT vulnerability and critical infrastructure
                       information notices pertaining to specific vulnerabilities, as well as
                       quarterly trend and analysis reports to control system representatives. 2

                  x	   Conducting in-person and online training. Training consists of basic
                       understanding and awareness of control systems’ security sessions,
                       intermediate courses for managers and IT professionals, and classes on
                       common vulnerabilities, as well as vulnerabilities specific to the
                       energy sector.

                  While progress has been made, NCSD still faces difficult challenges in
                  effectively reducing the cybersecurity risks to the nation’s critical
                  infrastructure. Improvements are needed in NCSD’s effort to protect and
                  secure controls systems that are essential to the nation’s security and
                  economy.

         Improved Information Sharing and Communication Will
         Enhance Control Systems Cybersecurity
                  Though NCSD has made progress in establishing and monitoring
                  collaborative efforts between the public and private sectors,
                  communication issues continue to exist. Without the public and private
                  sectors working together to identify and share critical cyber information,
                  there is little assurance that critical data will be made available to key
                  stakeholders in order to prevent, detect, or recover from a cyber incident.

                  In 2007, the Government Accountability Office (GAO) and our office
                  reported that NCSD needed to improve information sharing and
                  communications efforts within the control systems community. 3 We
                  recommended that NCSD develop a strategy for guiding and coordinating
                  control systems security efforts across public and private sectors. The
                  strategy was to include a description of various public and private entities’
                  roles and responsibilities, and mechanisms to improve information sharing
                  and the dissemination of sensitive information to key cybersecurity
                  personnel.

                  In response to these recommendations, NCSD drafted its Strategy for
                  Securing Control Systems, dated December 2008. The primary goal of the

2
  Vulnerability and critical infrastructure information notices are public warnings describing the nature of
an identified vulnerability, the software product, its impact, and the solution for correcting the
vulnerability.
3
  GAO-07-1036, Critical Infrastructure Protection: Multiple Efforts to Secure Control Systems are Under
Way, but Challenges Remain (September 2007) and OIG-07-48, Challenges Remain in Securing the
Nation’s Cyber Infrastructure (June 2007).



                        Challenges Remain in DHS’ Efforts to Secure Control Systems

                                                   Page 5
                  strategy is to create a common vision for sector participation, information
                  sharing, coalition building, and leadership to guide stakeholder activities
                  and improve overall coordination. In the strategy, NCSD encourages the
                  SSAs to coordinate cybersecurity efforts within their respective sectors.
                  SSAs are to facilitate and enhance communication within the private
                  sectors so that information about attack trends, vulnerabilities, and best
                  practices is shared. Additionally, SSAs are to raise awareness, identify
                  and remediate vulnerabilities when possible, disseminate sector-specific
                  threat warnings, and plan recovery operations for the infrastructure.

                  The public and private sectors need information on cyber risks and
                  hazards so that they can protect CIKR. Sharing control systems security
                  information is an important element in reducing cyber risks. Information
                  to be shared includes situational awareness, vulnerability detection and
                  mitigation, and best practices.

                  Some SSAs, however, expressed concern with NCSD’s leadership role in
                  the efforts to address cybersecurity and information sharing. Many SSAs
                  remained dissatisfied with the amount of shared information regarding
                  vulnerability detection and mitigation. Not only were SSAs unaware of
                  the latest cybersecurity developments and efforts, in many instances the
                  SSAs were not informed of the results of cyber control system
                  vulnerability assessments performed by NCSD or other federal agencies. 4

                  When NCSD performed its vulnerability assessments of private sectors’
                  control systems, the results were sometimes discussed with private sector
                  personnel, and excluded the SSAs. In other instances, NCSD attempted to
                  share the results of vulnerability assessments with the SSAs, but were
                  prevented from sharing this information because of non-disclosure
                  agreement restrictions between NCSD and the private sector owners.
                  Furthermore, SSAs were unaware of cyber control system vulnerability
                  assessment results that were performed by their regulatory SSA
                  counterparts, such as the Department of Energy and the Department of
                  Defense.

                  Homeland Security Presidential Directive - 7(HSPD-7) requires that DHS
                  and the SSAs collaborate with the appropriate private sector entities and
                  encourage the development of information sharing and analysis
                  mechanisms. Information sharing and analysis should relate to physical
                  and cyber threats, vulnerabilities, incidents, protective measures, and best
                  practices. Furthermore, The National Strategy to Secure Cyberspace

4
  NCSD contracts with the Idaho National Laboratory (INL), a federally funded Department of Energy
national laboratory that primarily focuses on energy and critical infrastructure security, to perform on-site
cyber vulnerability assessments of control systems and evaluation of vendors’ new system products.



                        Challenges Remain in DHS’ Efforts to Secure Control Systems

                                                    Page 6
recommends that DHS coordinate with other federal agencies to share
specific warning information and advice about appropriate protective
measures and countermeasures.

In the past, NCSD did not consistently hold its monthly or quarterly
working group meetings with the SSAs to discuss cybersecurity
developments and their impact on control systems. According to some
SSA officials, the meetings were held infrequently during the calendar
year 2008. The last meeting was held on May 2008 to discuss specific
vulnerabilities. Since January 2009, NCSD has attempted to improve its
relationship with the SSAs and the private sector by conducting monthly
working group meetings to discuss cybersecurity efforts. During these
meetings, NCSD discussed updates on cybersecurity initiatives and
activities, the latest incident reporting by US-CERT, sub-working groups’
progress, and upcoming training.

It is essential that the control systems community receives and is able to
share critical information about identified vulnerabilities and reported
events so that appropriate steps are taken to reduce the effects of a cyber
incident. Therefore, the collaborative working groups should establish the
trust and credibility needed to encourage open sharing of cybersecurity
efforts and results. Information sharing also allows the control systems
community to leverage other protective means used by the public and
private sectors to secure control systems.

Recommendations
       We recommend that the Deputy Under Secretary of the National
       Protection and Programs Directorate (NPPD) require NCSD to:

       Recommendation #1: Consistently hold monthly working group
       meetings to coordinate control systems security efforts and
       enhance information sharing between the public and private
       sectors.

       Recommendation #2: Establish alternative measures to reduce
       the non-disclosure restrictions on sharing control system
       vulnerability information. Possible alternatives could include the
       use of anonymity when gathering and reporting vulnerability
       information among stakeholders including system owners and
       SSAs.

       Recommendation #3: Hold a joint conference where all affected
       stakeholders can offer or provide remedy in alleviating



    Challenges Remain in DHS’ Efforts to Secure Control Systems

                              Page 7
      prohibitions on sharing vulnerability information among control
      systems owners.

Management Comments and OIG Analysis
      NPPD concurred with recommendation 1. NCSD is already in
      compliance with this recommendation through a separate means,
      the Cross-Sector Cyber Security Working Group (CSCSWG)
      which was established in 2007 and meets monthly to coordinate
      cybersecurity in CIKR sectors.

      In addition, the NCSD recently established the Industrial Control
      Systems Joint Working Group (ICSJWG) to coordinate security
      initiatives specifically associated with CIKR control systems. The
      ICSJWG meets quarterly and holds semi-annual conferences, but
      is planning to begin conducting monthly coordination meetings.

      We agree that the steps that NPPD has taken, and plans to take,
      satisfy this recommendation. This recommendation will remain
      resolved and open until NPPD provides further updates on the
      progress of the monthly meetings.

      NPPD concurred with recommendation 2. Non-disclosure
      agreements will always be necessary for vendor system
      assessments to protect proprietary information about system
      configurations and vulnerabilities. NCSD, however, encourages
      vendors to develop mitigation strategies, to share these strategies
      with their user base, and to report progress on their mitigation
      efforts. The Industrial Control Systems Cyber Emergency
      Response Team (ICS-CERT) publishes security bulletins in
      cooperation with the US-CERT, but keeps specific information
      about vendors and event locations confidential. The CSSP also
      issues an annual report listing common vulnerabilities within
      control systems associated with CIKR sectors.

      We agree that the steps that NPPD has taken, and plans to take,
      satisfy this recommendation. This recommendation will remain
      resolved and open until NPPD provides copies of ICS-CERT
      security bulletins and the annual report listing common
      vulnerabilities within control systems associated with CIKR
      sectors.

      NPPD concurred with recommendation 3. A subgroup devoted to
      improving information sharing was formed under the auspices of



   Challenges Remain in DHS’ Efforts to Secure Control Systems

                             Page 8
              the ICSJWG to address challenges associated with protecting
              sensitive and proprietary information. This subgroup, called the
              Information Sharing Subgroup, has developed a charter and will
              work with the CIKR community to develop a process for
              improving cybersecurity information sharing among control
              system stakeholders.

              We agree that the steps that NPPD has taken, and plans to take,
              satisfy this recommendation. This recommendation will remain
              resolved and open until NPPD provides a copy of the Information
              Sharing Subgroup charter and develops the process for information
              sharing.

Increasing the Number of Vulnerability Assessments Can Reduce
Sectors’ Risks
     Without an effective vulnerability assessment program, NCSD cannot
     develop strategies to mitigate common and sector-specific vulnerabilities.
     Through INL, NCSD has developed a vulnerability assessment program to
     reduce cyber risks for control systems and new vendor products. NCSD
     performs the following two types of assessments:

     x	   On-site cybersecurity control system vulnerability
          assessments – Performed on existing control systems to evaluate the
          current security posture. NCSD partners with the Protective Security
          Advisors (PSA) program, under NPPD’s Office of Infrastructure
          Protection, to perform on-site assessments. NCSD assesses
          cybersecurity, while the Office of Infrastructure Protection assesses
          the physical security of the facility.

     x	   Vendor system assessments – Focused on building security into
          hardware and software IT products during development. INL partners
          with selected vendors to evaluate new control system products for
          security vulnerabilities. INL uses nonintrusive methods, such as
          reviewing network diagrams and firewall rules, and performs a
          hands-on assessment of a duplicate nonproduction installation of the
          system. INL and the vendors sign a non-disclosure agreement to
          protect proprietary information and ensure confidentiality.

     NCSD’s on-site vulnerability assessments were performed in 6 of the 18
     sectors: Chemical, Dams, Energy, Healthcare and Public Health,
     Transportation, and Water. Vulnerability assessments identify areas of
     weakness in software, hardware, and operational equipment that are
     susceptible to destruction, incapacitation, or exploitation by mechanical



           Challenges Remain in DHS’ Efforts to Secure Control Systems

                                     Page 9
failures, natural hazards, terrorist attacks, or other malicious acts. As part
of these assessments, NCSD also determines what actions should be taken
to mitigate risks.

NCSD tasked cybersecurity experts, such as INL, other national
laboratories, and control system companies, to perform vulnerability
assessments of control systems and network components. Additionally,
the cybersecurity experts provide services to mitigate vulnerabilities and
build a security culture within the control systems community. For
example, they conduct outreach and awareness programs, develop and
disseminate control systems security products, and provide a capability to
respond to threats, vulnerabilities, and incidents.

INL also developed the automated Control System Cyber Security
Self-Assessment Tool (CS2SAT). INL and the cybersecurity experts use
CS2SAT to perform on-site vulnerability assessments. The CS2SAT tool
provides a series of tests based on recognized security standards within the
control system community. The tool is designed to identify gaps between
the controls implemented on a system and the controls that should be
implemented according to standards. Based on the identified gaps,
recommendations are made to correct cited weaknesses. INL and the
cybersecurity experts train private sector personnel on how to use the
CS2SAT tool so that they can perform self-assessments of their control
systems.

NCSD has conducted 11 on-site cybersecurity vulnerability assessments at
private sector sites to date. NCSD discussed identified weaknesses,
lessons learned, and best practices with the private sector owners. During
FY 2008, 15 vendor product assessments were performed.

In its interagency agreement with INL, NCSD did not define its expected
number of on-site and vendor product vulnerability assessments to be
performed during FY 2008. For FY 2009, NCSD budgeted for 12 on-site
cyber assessments to be conducted. NCSD personnel did not yet know
how many vendor product assessments would be conducted during FY
2009.

In addition to NCSD, other federal agencies, such as the Department of
Energy and the Department of Defense, perform control system
vulnerability assessments. Most of the regulatory SSAs also perform
periodic vulnerability assessments using customized assessment tools.
The SSAs, however, do not consistently share the results of their
assessments with the control systems community.




     Challenges Remain in DHS’ Efforts to Secure Control Systems

                              Page 10
Participation in NCSD’s vulnerability assessment program is voluntary
and available to any interested control systems owner. NCSD does not
have the authority to require assessments or the implementation of
recommendations. As a result, some sectors – Agriculture and Food –
have not had cybersecurity vulnerability assessments performed.
According to NCSD management and the SSAs, cybersecurity is not a
priority for most control systems owners because the importance of
cybersecurity or its impact on their systems is not clearly understood.

The National Infrastructure Protection Plan (NIPP) requires DHS to
ensure that comprehensive vulnerability assessments are performed for
CIKR. Additionally, the NIPP requires SSAs and security partners to
facilitate vulnerability assessment activities within their sectors. SSAs are
responsible for working with DHS to validate the results of those
assessments for assets that are of the greatest concern from the sector
perspective.

DHS must work with the SSAs and control systems owners, as well as
other security partners, to identify weaknesses and vulnerabilities in
control systems. Without effective on-site cybersecurity assessments of
control systems to identify and mitigate vulnerabilities and risks, critical
control systems may be at risk of cyber attacks.

On-site and vendor system assessments allow NCSD to conduct trend
analyses of vulnerabilities discovered, which would aid NCSD in
identifying events that indicate increasing interest or significant
developments. Additionally, NCSD should follow up on previously
conducted assessments to determine the risk reduction of actions taken on
mitigated vulnerabilities. The follow up program further demonstrates to
the public and private sectors that improvements are being made in control
systems cybersecurity. With assessment results, NCSD and the SSAs
would be in a better position to help inform the control systems
community of critical security investments that should be made to protect
their systems.

Recommendations
        We recommend that the Deputy Under Secretary of NPPD require
        NCSD to:

        Recommendation #4: Increase the number of on-site assessments
        performed of the CIKR by:




     Challenges Remain in DHS’ Efforts to Secure Control Systems

                              Page 11
          x   Seeking assistance from the Office of Infrastructure
              Protection via its PSA Program to perform cyber
              assessments when they perform physical security
              assessments.

          x   Encouraging the assistance of the SSAs in performing
              on-site cybersecurity assessments.

          x   Leveraging partnerships among the various Federal
              agencies in performing cybersecurity assessments.

          x   Developing incentive programs to encourage participation.

      Recommendation #5: Develop a process to follow-up on the
      vulnerability assessments performed to obtain feedback on the
      actions implemented.

Management Comments and OIG Analysis
      NPPD concurred with recommendation 4. The CSSP has planned
      for 12 on-site assessments in its FY09 work scope and agrees that
      additional assessments should be performed. NCSD works closely
      with the Office of Infrastructure Protection’s regional PSAs to find
      asset owners in need of on-site assistance. NCSD also supports the
      Office of Infrastructure Protection with its Regional Resiliency
      Assessment Program by providing cybersecurity expertise during
      on-site assessments. NCSD also works with the SSAs through the
      ICSJWG to identify specific sector needs and provide support in
      developing and implementing sector roadmaps to secure control
      systems. NCSD has already scheduled training workshops for the
      water sector as that sector rolls out their roadmap. This training
      will include instruction in the use of the self-assessment tools and
      offers for on-site assessment support.

      We agree that the steps that NPPD has taken, and plans to take,
      satisfy this recommendation. This recommendation will remain
      resolved and open until NPPD provides the 12 assessment trip
      reports and copies of the training packages for the water sector.

      NPPD concurred with recommendation 5. Currently the vendors
      that participate in laboratory system assessments provide the
      program with a plan for developing and implementing mitigation
      strategies to eliminate the discovered vulnerabilities and share
      information with their user base.



   Challenges Remain in DHS’ Efforts to Secure Control Systems

                            Page 12
             Also, ICS-CERT has provided follow-up actions in cases where
             the industry has requested assistance for analysis of specific cyber
             events within their networks. Although it is understood that all
             responses back to ICS-CERT are voluntary, organizations have
             responded with acknowledgement that the assistance CSSP has
             provided was indeed useful to remediate vulnerabilities.

             Lastly, NCSD is developing a process to collect feedback from
             stakeholders as they apply mitigation strategies through roadmap
             implementation in each sector. This process will encourage the
             sectors to collect common vulnerabilities in their security posture,
             which are discovered during the self-assessment process.

             We agree that the steps that NPPD has taken, and plans to take,
             satisfy this recommendation. This recommendation will remain
             resolved and open until NPPD provides a copy of the policy and
             procedures outlining the follow up process to collect feedback
             from the stakeholders and a copy of a report log showing
             ICS-CERT’s follow up efforts.


Specific Performance Measures Should be Defined to Assess
Effectiveness of CSSP
     Though performance measures exist, NCSD cannot determine that its
     CSSP is achieving the intended results and impact without developing
     sufficient outcome measures. As a result, NCSD will have difficulty in
     determining how effective its CSSP is in achieving its goal to strengthen
     control systems security.

     Performance measures indicate whether a program is meeting its goals and
     whether expected results are being achieved. Furthermore, performance
     measures address the direct products and services delivered by a program
     (outputs) and the results of those products and services (outcomes).
     Outcomes are important as they often describe the intended results or
     consequences that will occur from carrying out a program or activity.

     NCSD identified the following performance measures to monitor its
     overall cybersecurity efforts:

     x   Percentage of CIKR sectors that incorporated cybersecurity
         vulnerability assessments or its questions/concepts into their sector
         risk assessment methodologies;




          Challenges Remain in DHS’ Efforts to Secure Control Systems

                                   Page 13
x	   Percentage of targeted beneficiary satisfaction with cybersecurity
     collaboration events;

x	   Percentage of high priority stakeholders using CS2SAT to conduct
     assessments and mitigate known vulnerabilities;

x	   Number of cybersecurity information sharing products distributed to
     stakeholders; and

x	   Cost per incident (in U.S. dollars) reported to US-CERT.

Although overall performance measures have been established, NCSD has
not identified specific outcome performance measures to monitor CSSP’s
progress with control systems cybersecurity. Also, NCSD does not
monitor the control systems cybersecurity progress at the sector or
national level. Performance measures at the sector and national levels
allow for comparison and analysis between the different sectors.

Currently, NCSD’s performance measure for CSSP relates to the number
of cybersecurity information sharing products distributed to cybersecurity
stakeholders. This performance measure emphasizes “output” (i.e.,
number of conferences conducted and sponsored, number of training
sessions conducted and sponsored, and number of major reports issued),
but these measures do not evaluate the “outcome” of products and
services. Outcomes need to measure the effect of training on the control
systems community. For example, personnel’s increased cybersecurity
education can lead to the use of tools or security assessments to identify
and mitigate the risks of a control system attack.

According to the NIPP, a measure-based system should be used to provide
feedback on efforts to attain the goals and supporting objectives of the
programs implemented. Measures provide a basis for establishing
accountability, documenting actual performance, promoting effective
management, and reassessing goals and objectives. Additionally,
measures offer a quantitative assessment to affirm that specific objectives
are being met and identify gaps in the national effort or supporting sector
efforts.

The Office of Management and Budget requires agencies to prepare an
annual performance plan covering each program activity set forth in the
budget of the agency. In the plan, goals are established to define the level
of performance to be achieved by the budgeted program activity. In
addition, performance measures should be objective and quantifiable, and




      Challenges Remain in DHS’ Efforts to Secure Control Systems

                               Page 14
     should help management by providing information on how resources and
     efforts should be allocated to ensure program effectiveness.

     By comparing performance to goals, NCSD can modify its strategies to
     ensure that its mission and objectives are achieved. Additional
     performance measures will enable NCSD to improve its accountability for
     control systems security, comply with laws and regulations, and increase
     the effectiveness of its CSSP.

     Recommendation
            We recommend that the Deputy Under Secretary of NPPD require
            NCSD to:

            Recommendation #6: Define specific outcome-based
            performance measures that can be used to review and periodically
            evaluate the success of its CSSP in securing the nation’s CIKR.

     Management Comments and OIG Analysis
            NPPD concurred with recommendation 6. NCSD agrees that
            additional performance measures should be developed to evaluate
            progress in securing the CIKR against cyber attacks. The CSSP is
            currently developing and evaluating new methods for measuring
            security progress and is working with specific sectors as they
            include performance measures in their roadmap goals and
            milestones.

            The CSSP currently collects statistics for the number of
            participants in the various training courses offered. The program
            also works closely with vendors as they eliminate discovered
            vulnerabilities and share information with their user base.

            We agree that the steps that NPPD has taken, and plans to take,
            satisfy this recommendation. This recommendation will remain
            resolved and open until NPPD provides a copy of the updated
            performance measures.

Formal Training Program Will Increase Public Awareness and
Protection Expertise
     NCSD has not implemented a formal training program for the control
     systems community. Without adequate training, control systems owners




         Challenges Remain in DHS’ Efforts to Secure Control Systems

                                  Page 15
may not be able to handle disruptions in services and ensure business
continuity in the event of a cyber attack or breach.

Training allows the control systems community to develop and maintain
key CIKR protection expertise. It is important that individuals are
appropriately trained on how to fulfill their security responsibilities.
Furthermore, training should enhance the knowledge and skills required to
detect, deter, defend, and mitigate cyber events, activities, and incidents
that threaten the CIKR.

Since NCSD is the focal point for cybersecurity, all 18 critical sectors seek
guidance from NCSD on how to protect their specific sector against
vulnerabilities and threats that may directly impact their control systems.
NCSD contracted with INL to perform training sessions with the CIKR
sectors. Currently, NCSD’s training program is limited to general control
systems security and energy sector-related topics. There is no specialized
training for the other 17 sectors to improve personnel’s capabilities in
securing their control systems.

NCSD is in the process of working with INL to establish a training
program that will include a technical curriculum related to engineering, IT,
and computer science. They also plan to leverage current training courses.
However, due to staffing issues, it is unknown when the program will be
completed or implemented.

In developing its training program, NCSD should include operational and
technical topics, such as buffer zone protection, surveillance detection,
high-risk target awareness, incident reporting, and accepted control system
security practices. NCSD should also work with the SSAs and other
CIKR partners in developing courses for its formal training program.

The NIPP stipulates that DHS, in conjunction with the SSAs and other
CIKR partners, should provide training programs to security partners from
which they can obtain specialized training to enhance critical
infrastructure resource protection. Additionally, The National Strategy to
Secure Cyberspace requires that a national cyberspace security and
training program be developed. According to The National Strategy to
Secure Cyberspace, DHS must implement and encourage the
establishment of programs to advance the training of cybersecurity
professionals. DHS must also develop a coordination mechanism linking
federal cybersecurity training programs. The cyberspace training program
is to raise cybersecurity awareness in companies, government agencies,
universities, and among computer users.




     Challenges Remain in DHS’ Efforts to Secure Control Systems

                              Page 16
A training program for the control systems community would ensure that
situational awareness and the impact of vulnerabilities and threats are
conveyed so that they can be addressed. By providing the latest advances
in risk mitigation and best practices, the control systems community can
improve the security of their systems, thus, contributing to the overall
protection of CIKR.

Recommendations
       We recommend that the Deputy Under Secretary of NPPD require
       NCSD to:

       Recommendation #7: Develop specialized training for all CIKR
       sectors in order to improve public and private sector knowledge of
       control systems and cybersecurity risks.

       Recommendation #8: Market the availability of formal training
       courses to the control systems community to stress the awareness
       of cybersecurity and its importance.

Management Comments and OIG Analysis
       NCSD did not concur with recommendation 7. In general, NCSD
       does not recommend that specialized training for each sector be
       developed since control system applications and associated
       vulnerabilities are ubiquitous across all sectors. The current
       training curriculum already targets multiple sectors with examples
       of threats and consequences from many industries. Furthermore,
       control system components are used in every industry to perform
       the same control functions, irrespective to the process they control.
       When requested, the program has provided and will continue to
       develop specialized training for individual sectors to tailor it to
       their specific processes.

       We agreed to remove this recommendation based on the response
       provided by NPPD. Additionally, NPPD indicated in its response
       to recommendation 4 that NCSD is already scheduling training
       workshops for the water sector.

       NCSD concurred with recommendation 8. NSCD currently
       operates an extensive marketing effort to multiple sectors to
       highlights its products and training. This marketing is provided in
       the form of:




    Challenges Remain in DHS’ Efforts to Secure Control Systems

                             Page 17
   x     Presentations and keynote address at national and
         international industry conferences;

   x     Booths at conferences which highlight the program products
         and training offerings;

   x     Postings on the US-CERT and Control Systems website;

   x     Invitations at ICSJWG and CSCSWG Meetings; and

   x     Invitations to training at on-site assessments.

   NCSD plans to continue efforts to promote training and
   continuously improve the training curriculum.

   We agree that the steps NPPD has taken satisfy this
   recommendation. Additionally, NPPD has provided copies of the
   ICSJWG Inaugural Symposium and the upcoming ISCJWG 2009
   Fall Conference and Call for Papers, which advertised NCSD
   training. This recommendation is resolved and closed.




Challenges Remain in DHS’ Efforts to Secure Control Systems

                         Page 18
Appendix A
Purpose, Scope, and Methodology


                   The objective of our audit was to determine whether NCSD is
                   effective in its efforts to improve cybersecurity within the nation’s
                   critical infrastructure. We determined whether NCSD:

                   x   Is effectively reducing the risk to the nation’s CIKR by
                       providing guidance to the control system community through a
                       variety of mechanisms, trends, and methodologies.

                   x   Is properly monitoring collaborative efforts among federal,
                       states, local and control systems owners, operators, and
                       vendors.

                   x   Has an incident response procedure in place to provide a level
                       of assurance that the nation’s control systems would recover
                       from attacks in a timely manner.

                   Our review focused on NCSD’s program for control system
                   security based on the requirements outlined in HSPD 7, Critical
                   Infrastructure Identification, Prioritization, and Protection
                   (December 2003), NIPP (June 2006), The National Strategy to
                   Secure Cyberspace (February 2003), National Institute of
                   Standards and Technology Special Publication 800-53,
                   Recommended Security Controls for Federal Information Systems
                   (December 2007), and National Institute of Standards and
                   Technology Special Publication 800-82, Guide to Industrial
                   Control System Security (September 2008).

                   We interviewed NCSD and Office of Infrastructure Protection
                   management, as well as personnel from the INL, including the
                   program managers and the Cyber Security Assessment Lead.
                   Furthermore, we interviewed personnel from various sectors,
                   including Chemical, Commercial Facilities, Dams, Defense
                   Industrial Base, Energy, Nuclear Reactors, Materials and Waste,
                   and Water. We received feedback regarding NCSD’s
                   communication and information sharing, vulnerability
                   assessments, and cybersecurity concerns.

                   We evaluated the quality of NCSD’s performance measures. We
                   reviewed vulnerability notes and critical infrastructure information
                   notices to determine whether US-CERT issued adequate and
                   timely incident response reports to the control systems community.
                   We also evaluated the CS2SAT, a questionnaire used to conduct


                  Challenges Remain in DHS’ Efforts to Secure Control Systems

                                         Page 19
Appendix A
Purpose, Scope, and Methodology


                    cybersecurity assessments, and determined whether security 

                    assessments are being performed. 


                    We conducted our work at the program level and conducted a site 

                    visit at INL in Idaho Falls. We conducted this performance audit 

                    between December 2008 and April 2009 according to generally 

                    accepted government auditing standards. Those standards require 

                    that we plan and perform the audit to obtain sufficient, appropriate 

                    evidence to provide a reasonable basis for our findings and 

                    conclusions based on our audit objectives. We believe that the 

                    evidence obtained provides a reasonable basis for our findings and 

                    conclusions based on our audit objectives. Major OIG contributors 

                    to the audit are identified in Appendix C. 


                    The principal OIG points of contact for the audit are

                    Frank W. Deffer, Assistant Inspector General, Information 

                    Technology Audits, at (202) 254-4041, and Edward G. Coleman, 

                    Director, Information Security Audit Division, at (202) 254-5444. 





                 Challenges Remain in DHS’ Efforts to Secure Control Systems

                                          Page 20
Appendix B
Management Comments to the Draft Report
________________________________________________________________________




                 Challenges Remain in DHS’ Efforts to Secure Control Systems

                                        Page 21
Appendix B
Management Comments to the Draft Report




                Challenges Remain in DHS’ Efforts to Secure Control Systems

                                         Page 22
Appendix B
Management Comments to the Draft Report




                Challenges Remain in DHS’ Efforts to Secure Control Systems

                                         Page 23
Appendix B
Management Comments to the Draft Report




                Challenges Remain in DHS’ Efforts to Secure Control Systems

                                         Page 24
Appendix C
Major Contributors to this Report
________________________________________________________________________

                  Information Security Audit Division

                  Edward G. Coleman, Director
                  Tarsha Cary, Audit Manager
                  Pamela Williams, Senior IT Auditor
                  Charles Twitty, IT Auditor
                  Amanda Strickler, IT Specialist
                  Barbara Bartuska, Audit Manager
                  Matthew Worner, Referencer




                 Challenges Remain in DHS’ Efforts to Secure Control Systems

                                        Page 25
Appendix D
Report Distribution
________________________________________________________________________

                  Department of Homeland Security

                  Secretary
                  Deputy Secretary
                  Chief of Staff for Operations
                  Chief of Staff for Policy
                  Deputy Chief of Staff
                  Executive Secretary
                  Assistant Secretary, Legislative Affairs
                  Assistant Secretary, Policy
                  Assistant Secretary, Public Affairs
                  General Counsel
                  Office of Security
                  Office of Privacy
                  Assistant Secretary, Cyber Security and Communications
                  Chief Information Officer (CIO)
                  Deputy CIO
                  Chief Information Security Officer
                  Director, NCSD
                  Director, Critical Infrastructure Cyber Protection and Awareness,
                  NCSD
                  Director, Control Systems Security Program, NCSD
                  Director, US-CERT
                  Information Systems Security Manager, NPPD
                  Director, Departmental GAO/OIG Liaison Office
                  Director, Compliance and Oversight Program
                  Audit Liaison, NPPD
                  Audit Liaison, DHS/CISO
                  Audit Liaison, DHS/CIO
                  Director, Information Security Audit Division (ISAD)
                  Audit Manager, ISAD

                  Office of Management and Budget

                  Chief, Homeland Security Branch
                  DHS OIG Budget Examiner




                 Challenges Remain in DHS’ Efforts to Secure Control Systems

                                        Page 26
Appendix D
Report Distribution
________________________________________________________________________

                  Congress

                  Appropriate Congressional Oversight and Appropriations
                  Committees




                 Challenges Remain in DHS’ Efforts to Secure Control Systems

                                        Page 27
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
